DUAL MANAGEMENT OF COMMERCIALLY AVAILABLE ITEMS -
        INFORMATION AND IMAGING SOLUTIONS



Report No. 98-144                          June 3, 1998



              Office of the Inspector General
                  Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD, Home Page at: www.dodig.osd.mil.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contract the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

DISC                 Defense Industrial Supply Center
DLA                  Defense Logistics Agency
GSA                  General Services Administration
JWOD                 Javits-Wagner-O’Day
NIB                  National Industries for the Blind
                            INSPECTOR GENERAL
                            DEPARTMEW OF DEFENSE
                                 4OOARMYNAVYDRnre
                            ARLINGTON, VlRGlNlA   22202-2884


                                                                             June 3, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION
                 AND TECHNOLOGY
               DIRECTOR, DEFENSE LOGISTICS AGENCY

SUBJECT: Audit Report on Dual Management of Commercially Available Items -
         Information and Imaging Solutions (Report No. 98-144)


        We are providing this report for your review and comments. This report is the
third in a series of reports regarding the dual management of commercially available
items. This audit was requested by the Assistant Deputy Under Secretary of Defense
(Materiel and Distribution Management). We considered management comments on a
draft of this report in preparing the final report.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly.
Comments from the Acting Principal Assistant Deputy Under Secretary of Defense
(Logistics) were generally responsive; however, we request that the Acting Principal
Assistant Deputy Under Secretary provide more specific information on planned actions
and an estimated completion date by August 3, 1998.

         We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Tilghman Schraden at (703) 604-9186 (DSN 664-9186),
e-mail tschraden@dodig.osd.mil, or Mr. Terry Wing at (215) 737-3883
(DSN 444-3883), email twing@dodig.osd.mil. See Appendix C for the report
distribution. The audit team members are listed inside the back cover.




                                        Robert L: Lieberman
                                      Assistant Inspector General
                                               for Audit
                          Offke of the Inspector General, DoD

Report No. 98-144                                                         June 3,1998
  (Project 6LD-5044.04)

           Dual Management of Commercially Available Items -
                   Information and Imaging Solutions


                                 Executive Summary

Introduction.   This audit was requested by the Assistant Deputy Under Secretary of
Defense (Materiel and Distribution Management). This report is the third in a series of
reports on dual management of commercially available items.

On October 10,1997, the Defense Industrial Supply Center issued a solicitation to
establish a prime vendor for its office solutions initiative. An amendment to the
solicitation was issued on December 16, 1997, to revise the solicitation and rename the
initiative to the information and imaging solutions prime vendor program. A prime
vendor is a business concern that functions as a purchaser’s primary source of supply
for specified types of products and is responsible for the delivery of those products,
produced by various manufacturers, to the customer.

The types of items included in the solicitation were commercial, brand name office
products such as automatic data processing equipment, business machines, general
office supplies, photographic imaging supplies, and telecommunications equipment.
The solicitation covered requirements for 64 military organizations in the southeastern
United States and the Defense Industrial Supply Center. The estimated annual budget
for information and imaging solution products for the 65 organizations is $392 million.

Audit Objectives. The overall audit objectives were to determine the extent of
products available through non-Defense Federal organizations for which DOD also
operates central procurement programs and to evaluate whether the DOD programs are
providing services without added benefit to DOD. This report discusses our review of
the information and imaging solutions initiative to determine the extent of commercially
available products included in the initiative that were also available from the General
Services Administration and other sources. We also reviewed the adequacy of the
management control program applicable to the stated objectives. Subsequent reports
will determine the extent of additional commodities available through non-Defense
Federal organizations for which DOD also operates centralized procurement programs.
Audit Results. Immediate action was required to suspend the Defense Industrial
Supply Center initiative because it duplicated and competed with General Services
Administration, National Industries for the Blind, and Defense Logistics Agency
procurement and supply programs. If the initiative had proceeded as planned, there
was no assurance that Defense Logistics Agency resources would provide added value
(cost economies) to either DOD or the Defense Logistics Agency role as a combat
support agency. Additionally, customers ordering items through the prime vendor
could have paid higher prices than were the same items procured through the General
Services Administration or National Industries for the Blind organizations and
purchases would not have been consolidated under a single source of supply for
potential price discounts.

The management controls could be improved because we identified a material weakness
in the process used to select items for the initiative. A similar weakness was also
reported in Inspector General, DOD, Report No. 97-205, “Dual Management of
Commercially Available Items - Defense Logistics Agency Electronic Catalog, n
August 15, 1997.

Implementing the recommendation should reduce duplication in procuring commercial
items and result in potential monetary benefits. However, we could not quantify the
potential benefits because they are dependent on future review results and associated
management decisions. See Part I for a discussion of the audit results.

Actions Taken by Management. On March 10, 1998, the Defense Industrial Supply
Center, at the direction of the Defense Logistics Agency, canceled the solicitation.

Summary of Recommendations. We recommend that management controls be
established to prevent duplication of Defense Logistics Agency commercial item
procurement initiatives with centralized procurement programs of other Government
organizations.

Management Comments. The Acting Principal Assistant Deputy Under Secretary of
Defense (Logistics) concurred with the recommendation, and stated that the Defense
Logistics Agency will minimize the duplication of centralized procurement programs of
Government organizations. In its contracting actions, the Defense Logistics Agency
should be aware of potential overlaps and make a judgment in each case. See Part I for
a summary of management comments and Part III for the complete text of management
comments.

Audit Response. The comments from the Acting Principal were generally responsive.
We request that the Acting Principal provide additional comments to clarify planned
actions and provide the estimated completion dates by August 3, 1998.

                                           ii
Table of Contents

Executive Summary                                                     i

Part I - Audit Results

      Introduction
      Audit Background
      Audit Objectives
      Information and Imaging Solutions Initiative

Part II - Additional Information

      Appendix A. Audit Process
        Scope and Methodology                                        18
        Management Control Program                                   18
      Appendix B. Summary of Prior Coverage                          20
      Appendix C. Report Distribution                                22


Part III - Management Comments

      Acting Principal Assistant Deputy Under Secretary of Defense
          (Logistics) Comments                                       26
Part I - Audit Results
Introduction

     The audit was requested by the Assistant Deputy Under Secretary of Defense
     (Materiel and Distribution Management). This report, the third in a series of
     reports on dual management of commercially available items, discusses the
     Defense Industrial Supply Center (DISC) information and imaging solutions
     initiative. Inspector General, DOD, Report No. 98-037, “Dual Management of
     Commercially Available Items - Battery, Food Service, and Photographic
     Products,” December 12, 1997, and Report No. 97-205, “Dual Management of
     Commercially Available Items - Defense Logistics Agency Electronic Catalog
     Program,” August 15, 1997, discuss duplication between Defense Logistics
     Agency (DLA) and General Services Administration (GSA) procurement and
     supply programs. Those reports are summarized in Appendix B.



Audit Background

     DISC Office Solutions Initiative Solicitation. On October 10, 1997, DISC,
     an activity of the DLA located in Philadelphia, Pennsylvania, issued a
     solicitation (SP0500-97-R-015 1) for a prime vendor for its office solutions
     initiative. Solicitations are used to communicate requirements to potential
     offerors and to solicit proposals to fill the requirements. Two of the primary
     objectives of the initiative were to provide customers with one-stop shopping for
     all office products, and to establish contractual requirements for the rapid
     acquisition of office products to fill unanticipated requirements as a result of
     emergency relief efforts, natural disasters, and war. An amendment to the
     solicitation was issued on December 16, 1997, to revise the solicitation and
     rename the initiative the information and imaging solutions prime vendor
     program, hereafter referred to as the DISC office initiative.

     A prime vendor is a business concern that functions as a purchaser’s primary
     source of supply for specified types of products and is responsible for the
     delivery of those products, produced by various manufacturers, to the customer.
     The types of items included in the DISC solicitation for a prime vendor were
     commercial, brand name office products and incidental services such as
     equipment maintenance and repair agreements. The solicitation covered


                                         2
requirements for 64 military organizations in the southeastern United States and
DISC. The estimated annual budget for information and imaging solution
products for the 65 organizations is $392 million. As of February 27, 1998,
none of the 64 military organizations had formally entered into an agreement
with DISC to participate in the program. DISC personnel advised us that the
organizations were waiting to evaluate the terms and conditions of the prime
vendor contract.

Role of DLA. The DLA is a combat support agency responsible for
worldwide logistics support, including procuring; stocking; and issuing
consumable items throughout DOD. The primary focus of DLA is to support
military operations in peace and war and to provide relief efforts during national
emergencies. As of March 1997, DLA managed approximately 4 million
national stock numbers, of which 1.5 million national stock numbers were
coded as essential to the operation of the Military Department weapons systems.

Role of GSA. The GSA was established in 1949 to supply personal property
to Government organizations. GSA operates a worldwide supply system to
contract for and distribute personal property and services to Federal agencies.
GSA provides items to its customers through several supply programs that
include Federal supply schedules, special order, and stock. GSA manages
approximately 135,000 national stock numbered items and has approximately
6,000 contracts with vendors for direct delivery of commercial items to
customers.

DOD and GSA Supply Management Relationship. The DOD and GSA
entered into an agreement in 1971 to eliminate avoidable duplication and
overlap between their respective supply systems and those of other Federal
agencies. The agreement was also to provide responsive, effective, and
economical integrated materiel management to all Government agencies for
commonly used commodities. With few exceptions, the agreement assigns to
GSA Federal supply classes (4-digit code at the beginning of a national stock
number that designates the general commodity grouping of an item) that Federal
agencies commonly use, that are commercially available on the civilian
economy, and that are not predominantly of a military nature. The agreement
assigns to DLA Federal supply classes that are commonly used in military
operations or weapons systems support, regardless of how civilian agencies use
them.
DOD Policy on GSA Supply Services. DOD Manual 4140.26-M, “Defense
Integrated Materiel Management Manual for Consumable Items,” May 1997,
provides integrated materiel management assignments for consumable materiel.
Integrated materiel management responsibilities include cataloging, determining
requirements, procuring, distributing, and disposing materiel. According to the
Manual, GSA is assigned management responsibility for 12 of the 33 Federal
supply classes included in the DISC office initiative.

On March 6, 1997, the Director, Defense Procurement, issued a memorandum,
“General Services Administration Federal Supply Schedules as Preferred
Sources of Supply,” that established DOD policy on using GSA services. The
memorandum urged DOD organizations to take full advantage of GSA Federal
supply schedule contracts, if needed services and supplies are covered by the
contracts. The Director stated that innovative changes mirroring commercial
practices, to include the use of the Internet, have made GSA schedules even
more efficient to use. Additionally, the use of schedule contracts meets DOD
goals to simplify the acquisition process.

Role of the National Industries for the Blind. Congress established the
Javits-Wagner-O’Day (JWOD) Act (Public Law 92-28) in 1971 to provide job
opportunities for Americans who are blind or have other severe disabilities.
The JWOD Act requires Government organizations to purchase certain supplies
from participating nonprofit organizations employing blind or severely
handicapped people, provided the organizations deliver quality products on time
and at a fair price. The JWOD Act also established the Committee for Purchase
From People Who are Blind or Severely Disabled, which is responsible for
maintaining a procurement list of commodities and services that Government
organizations must purchase from participating nonprofit organizations. The
Committee designated the National Industries for the Blind (NIB), and the
National Industries for the Severely Handicapped to provide technical and
financial support for more that 550 nonprofit organizations participating in the
JWOD program.




                                    4
Audit Objectives

     The audit objectives were to determine the extent of products available through
     non-Defense Federal organizations for which DOD also operates central
     procurement programs and to evaluate whether the DOD programs are providing
     services without added benefit to DoD. The objective of this report was to
     evaluate the DISC office initiative to determine the extent of products included
     in the initiative that were also available from GSA and other sources. We also
     reviewed the adequacy of the management control program applicable to the
     stated objectives. Subsequent reports will determine the extent of additional
     commodities available through non-Defense Federal organizations for which
     DOD also operates centralized procurement programs. See Appendix A for a
     discussion of the scope and methodology and our review of the management
     control program. See Appendix B for a summary of prior coverage.




                                         5
            Information and Imaging Solutions
            Initiative
            The DISC office initiative duplicated and competed with GSA, NIB, and
            DLA programs. Specifkally, the DISC office initiative included
            commercial, brand name office products that were centrally procured by
            GSA and available through the NIB supply programs and the DLA
            electronic catalog. The duplication occurred because of DISC efforts to
            expand its sales base and provide its customers with the widest number
            of possible choices by implementing commercial business practices that
            competed with procurement and supply programs of other Government
            organizations. If the initiative had proceeded as planned, there was no
            assurance that DLA resources would provide added value (cost
            economies) to either DOD or the DLA role as a combat support agency.
            Additionally, items could cost customers more than if the same items
            were procured through GSA or NIB. Finally, purchases would not have
            been consolidated under a single source of supply for potential price
            discounts.



Overview of the Information and Imaging Solutions Initiative

     Under the DISC office initiative, DISC will select regional prime vendors for its
     south atlantic and south central zones of the United States to supply commercial,
     brand name office products. DISC is seeking firms that can provide a wide
     range of products normally used in either a traditional business or administrative
     setting or in a nontraditional setting, such as in the field during deployment of
     military forces, on the flight line of an air base, or dockside at a naval base. An
     indefinite quantity contract is anticipated, and the total length of the contract
     will consist of a base ordering period of 20 months from the issuance of the first
     order, plus options to extend the period of the contract up to 2 additional
     20-month ordering periods. The Government’s guaranteed minimum for the
     contract is $250,000 for the initial ordering period and option periods. After a
     contract is awarded, contractors must submit a plan to DISC outlining how they
     intend to implement the prime vendor program.
                                      Information and Imaging Solutions Initiative



Commercial OfTice Products

    The DISC office initiative included commercial, brand name office products
    that were centrally procured by GSA and available through NIB supply
    programs and the DLA electronic catalog.

    Types of Items Included in the Initiative. The DISC office initiative included
    commercial, brand name office products. The types of items included in the
    solicitation were commercial (any item offered for sale, lease, or license to the
    general public), brand name office products, and incidental services such as
    extended commercial warranties and technical training. Office products and
    incidental services included in the solicitation were divided into primary and
    secondary groups. The primary group consists of general supplies; automatic
    data processing equipment; and business equipment including binders, computer
    peripherals and monitors, copy and computer paper, desktop and laptop
    computers, facsimile machines and paper, folders, index cards, pens, scissors,
    and staplers. The secondary group consists of miscellaneous items such as,
    batteries, dictionaries, janitorial supplies, photographic and imaging equipment
    and supplies (cameras, film, etc.), telecommunications equipment and supplies
    (modems, pagers, telephones, and video conferencing equipment), and
    incidental services. At a minimum, prime vendors will be required to provide
    customers with supplies from the primary products group.

    GSA Procurement and Supply Programs. GSA supply and procurement
    programs provided the same or similar commercial, brand name office products
    that would be provided by the DISC office initiative. Additionally, Government
    organizations meet statutory requirements to purchase JWOD products when
    they procure items through GSA programs.

            Customer   Supply Centers.   GSA has 10 customer supply centers
    located throughout the United States that provide easy, fast, one-stop shopping
    for about 18,000 common office, administrative, and industrial supplies.
    Customers can order materiel by facsimile, personal computer, or phone.
    Orders are delivered within 1 to 3 days of receipt to the customers’ location. Of
    the 10 supply centers, 4 provide supplies to organizations in the geographical
    area covered by the DISC office initiative.

     As an extension of the customer supply centers, GSA opened GSA express
     stores (virtual or walk-in) at various DOD organizations. Those stores provide
     easy access to a wide variety of office and industrial products. Ten virtual stores

                                          7
Information and Imaging Solutions Initiative

      have items on display; an array of brochures, catalogs, and pamphlets regarding
      available products; and a personal computer on which customers may order
      supplies electronically. Six walk-in stores have materiel in stock for on the spot
      sale. Walk-in customers can also place electronic orders for materiel that is not
      in stock.

               Stock Program. The GSA stocks a wide variety of items in a
      nationwide network of distribution centers. Stock items are listed in the GSA
      supply catalog and can be ordered either by submitting a requisition or by
      ordering through the GSA Advantage Program, an on-line shopping service
      available on the Internet. Approximately 1,900 items that are in the supply
      catalog are also in the Federal supply classes included in the DISC office
      initiative. For select customers, GSA arranges for materiel to be shipped
      directly from the vendor to the customer when it is more economical.

              Federal Supply Schedule Program. Under the Federal supply schedule
      program, GSA enters into contracts with commercial firms to provide supplies
      and services at stated prices for given periods. The program provides customers
      with literally millions of state of the art, high quality commercial products at a
      volume discount price through direct delivery. Customers place orders directly
      with contractors, and contractors make deliveries directly to customers. For the
      33 Federal supply classes included in the DISC office initiative, GSA had
      32 Federal supply schedules with office products available from over
      2,600 vendors.

       One of the Federal supply schedules, “Office Supplies - Next Day Delivery,”
       covered nine Federal supply classes that were included in the DISC office
       initiative. GSA sales from the Federal supply schedule were $16.2 million from
       April 1996 through January 1998. Customers used that Federal supply schedule
       to order office supplies from six vendors (Boise Cascade Office Products, BT
       Office Products International, Corporate Express Inc., Innovative Sales Brokers
       Inc., Office Depot, and Staples National Advantage). The vendors accept the
       Government credit card as payment and accept orders 24 hours a day, 7 days a
       week. Customers placed orders by personal computer using the GSA
       Advantage Program, by facsimile, or by dialing an 800 telephone number.
       Delivery was required by the next business day and JWOD items were
       integrated into the contracts. The contract price for the materiel ordered
       included a 1 percent GSA cost recovery factor.




                                           8
                                 Information and Imaging Solutions Initiative

GSA Advantage Program. The GSA Advantage Program became operational
in October 1995. It is being developed incrementally and, when completed, it
will bring together products in all GSA supply programs, along with their
descriptions, delivery options, and prices to provide a simplified method of
ordering. Advantage allows customers to use the Internet to browse, perform
searches, and place orders for products. In July 1997, the President of the
United States, outlining the Administration’s actions to move forward in the
new electronic age of commerce, directed GSA to “move the Federal
Government into the age of electronic commerce by expanding the GSA
Advantage, its on-line shopping service for the Federal community to cover
four million items by 12 months from now.” As of December 1997, the
Advantage Program contained over 310,000 items.

NIB Supply Programs. The NIB supply programs provided the same or
similar commercial, brand name office products that would be provided by the
DISC office initiative. The NIB has established base supply centers at military
installations where the installation has closed or deactivated its self-service
supply center or base supply store. By having the supply centers located on
installations, military commands have immediate access to supplies and know
that procurements are in compliance with the provisions of the JWOD Act.

As of December 10, 1997, NIB base supply centers were established at
31 military installations. The product lines stocked at the supply centers, from
500 to 3,600 items, included items mandated by the JWOD Act and other
commercial products. Examples of mandated items stocked in the supply
centers are calendars, cleaning supplies and maintenance equipment items,
disks, office supplies, and tape. NIB plans to open another nine supply centers
in the near future. Of the 40 NIB supply centers, 13 were located on
installations that were included in the DISC office initiative. The
13 installations accounted for $138.9 million (36 percent) of the estimated
$392 million of office product sales for the organizations included in the DISC
office initiative.

The DISC office initiative requires that prime vendors comply with the JWOD
Act. Accordingly, the prime vendors will procure mandatory items from
JWOD organizations and distribute the materiel to its customers.

DLA Electronic Catalog. The DLA electronic catalog program provided the
same or similar commercial, brand name office products that would be provided
by the DISC office initiative. The DLA established an electronic catalog pilot



                                    9
Information   and Imaging Solutions Initiative

       program in April 1997 that customers, through the Internet, could browse,
       select, and order commercial items. The program is being tested in phases,
       with four customers and seven vendors participating. Of the seven vendors
       included in the program, three provide office products. If it is successful, DLA
       plans to rapidly expand the catalog into a major buying tool for DLA customers.



Value Added

       Having various Government organizations operating centralized procurement
       and supply programs that compete with each other in procuring commercial,
       brand name office products did not contribute to the economy and efficiency of
       the Government. Additionally, the types of items selected for the solicitation
       did not add value to either the DOD or the DLA role as a combat support
       agency. We agree with the DISC position that the DISC office initiative could
       provide its customers with additional choices of suppliers and products.
       However, we believe that with GSA and NIB procurement and supply programs
       and increased local procurement authority, particularly using the Government
       credit card, customers already have sufficient choices to obtain needed office
       products at the best combination of price, service, and availability.
       Additionally, the DISC office initiative does not guarantee any significant
       benefits over other supply sources regarding ordering, delivering, pricing,
       billing and paying. If anything, the prime vendor program could result in
       higher prices to customers.

                Ordering Items. The DISC office initiative did not guarantee any
       significant benefit over other supply sources regarding the ordering of materiel.
       Prime vendors are required to possess an electronic order entry system so that
       participating organizations can order materiel by using a personal computer.
       Nonemergency orders on the prime vendors system will be accepted between
       the hours of 8:00 a.m. and 5:OOp.m. Monday through Friday, and emergency
       orders will be accepted 24 hours a day, 7 days a week. Additionally, after the
       prime vendors are selected, the vendors will have the option to permit
       customers to order by either facsimile or telephone. Prime vendors systems will
       also include an on-line electronic price and product catalog that lists the office
       supply items that are available for sale. This ordering process is similar to or the
       same as the GSA Advantage Program, the Office Supplies - Next Day Delivery
       Federal supply schedule, and the DLA electronic catalog already provide.




                                            10
                                  Information    and Imaging Solutions Initiative

        Delivering Items. The DISC office initiative did not guarantee any
significant benefit over other supply sources regarding the delivery of materiel.
Basic or consumable supplies will be delivered by 5:OOp.m. on the next
business day following the placement of the order. Specialty and
nonconsumable supplies will be delivered by 5:OOp.m. no later than
30 calendar days following the placement of the order. Emergency orders will
be delivered to an organization’s receiving locations within 6 hours following
placement of the order. While those terms of delivery should ensure that
customers receive materiel when needed, the same or similar terms are also
offered by the GSA Office Supplies - Next Day Delivery Federal supply
schedule. Additionally, with access to NIB supply stores and with local
procurement, materiel would be available immediately, if in stock.

       Pricing of Materiel.     Items ordered through the DISC prime vendor
could cost customers more than if the same items were procured through GSA
or NIB. During the term of the contract, the pricing of items provided by the
prime vendors, except items provided by NIB organizations, will be based on
the Moore retail pricer. Moore 0. P. Services maintains the retail pricer that
some Government organizations use as a benchmark for pricing contracts. The
pricer contains descriptions of items and manufacturers* suggested retail pricing
information for the types of items included in the primary and secondary
products groups covered by the DISC office initiative. The lowest. package
retail price shown in the retail pricer will be used to establish the base price for
items. JWOD Act organizations provide items to commercial distributors at a
price established by the Committee for Purchase From People Who Are Blind
or Severely Disabled.

For items based on the retail pricer, vendors will discount a percentage off the
base price and mark up a percentage for JWOD Act items. The percentages
include the prime vendors profit and transportation costs. DISC will also add a
cost recovery factor, estimated to be from 3 to 4 percent, to recoup its costs for
administering the program. The base price of items will be updated quarterly.
However, the percentage discount and markup will not change over the life of
the contract. The GSA Office Supplies - Next Day Delivery Federal supply
schedule uses the same pricing techniques that the selected prime vendors will
use. However, prices in Federal supply schedules include only a 1 percent GSA
cost recovery factor.




                                      11
Information   and Imaging Solutions Initiative

               DLA and GSA Partnership.        The DLA and GSA partnership for the
       DISC office initiative may not add value or avoid duplication. In January 1998,
       DLA and GSA met to discuss the DISC office initiative and GSA supply
       programs for office products and how DLA and GSA could develop a
       partnership for the DISC office initiative. A task force was created to identify
       any issues that might impede the DLA initiative, resolve any legal issues,
       determine alternative approaches, and make recommendations. One alternative
       the task force considered was that DISC prime vendors would be required to use
       the GSA Federal supply schedules when best value could be attained by that
       method of support. In effect, prime vendors would act as a broker between the
       GSA vendor and customers. This alternative, however, would result in
       customers paying more than if the materiel was ordered directly from a GSA
       vendor because of the DISC cost recovery rate and the prime vendors’ profit
       markup. For example, if a customer ordered a piece of business equipment
       from a GSA vendor for $100, the price would include the cost of the materiel,
       the vendor profit markup, GSA 1 percent cost recovery factor, and
       transportation costs. If the same item was procured through the DLA prime
       vendor, the customer would pay $100 plus the prime vendor profit markup and
       the DISC cost recovery factor. Assuming a prime vendor profit markup of
       6 percent and a DISC cost recovery factor of 4 percent, the customer would pay
       approximately $110 for the same item that could have been obtained from GSA
       for $100. On March 10, 1998, the Commissioner, Federal Supply Service,
       GSA, sent a memorandum to DLA stating that he was concerned that the
       alternatives being pursued by the task force may unwittingly cause duplicative
       work efforts in the Government and industry and result in increased costs to the
       taxpayer.

               Customer   Billing and Vendor Payments.     The GSA and NIB supply
       alternatives eliminate the administrative costs included in the DISC office
       initiative for matching receipt data and customer billing. Under the DISC office
       initiative, after receipt of orders, customers will report receipt information to
       DISC via a requisition. DISC will record the receipt data in its active contract
       file. Vendors will submit billing data to DISC and DISC will match receipt and
       billing data. If the data match, DISC will authorize the Defense Finance and
       Accounting Service to pay the vendor using customers appropriated funds. If the
       data do not match, DISC will research the data to reconcile discrepancies. For
       GSA supply programs and the NIB supply center stores, only the customer and
       the vendor are generally involved in customer billing and vendor payments.




                                           12
                                     Information and Imaging Solutions Initiative

    The DISC solicitation states that during the life of the contract, the Government
    would like to begin to offer participating organizations the opportunity to use
    the Government credit card as a form of payment when orders are placed.
    Additionally, the Government and the prime vendors agree to negotiate a
    mutually acceptable implementation for the credit card at a future time. As
    customers switch over to credit card usage, there should be less DISC
    involvement in the receipt matching and billing process.



Consolidation of Purchases

     Consolidated purchases generally result in volume price discounts. By
     eliminating the duplication between DISC office initiative and other programs
     that procure the same types of items, the Government could consolidate
     requirements and generate larger orders from the vendors. Vendors realize
     reduced order processing and administrative expenses for large quantity orders.
     Generally, the vendors pass those savings to customers when large quantity
     orders are placed.


Management Controls

     The DLA had not established management controls to ensure that commercial
     item initiatives did not duplicate procurement and supply programs of GSA,
     NIB, and the DLA electronic catalog. The DISC office initiative duplicated the
     supply and procurement programs because of the DISC efforts to increase its
     sales base and provide its customers with the widest number of possible choices.
     To achieve that, DISC implemented commercial business practices that
     competed with procurement and supply programs of other Government
     organizations. In selecting items for the initiative, DISC disregarded criteria
     established in the 197 1 agreement to eliminate duplication and overlap between
     Government supply systems. DLA officials advised us that with the National
     Performance Review and the DLA emphasis to reengineer its business practices
     to provide total support to its customers, the 1971 agreement regarding the
     assignment of Federal supply classes might not be the best policy in obtaining
     needed supplies to provide DLA customers with total support. We believe the
     initiative is contrary to the National Performance Review and the Defense
     Reform Initiative. Section 912 of the National Defense Authorization Act for
     FY 1998 (Public Law 105-85) requires that DOD reduce acquisition positions by
      15,000 to 25,000. Actions necessary to achieve that objective include

                                         13
Information and Imaging Solutions Initiative

      identifying areas of overlap, duplication, and redundancy among acquisition
      organizations. The essence of Public Law 105-85 is captured in the National
      Performance Review and the DOD November 1997 reform initiative, “The
      Business Strategy for Defense in the 21st Century,” which provide that DOD
      will streamline organizations to remove redundancy and maximize synergy, and
      reduce excess support structures to free resources and focus on core
      competencies. We do not believe that the acquisition of office products is a
      DLA core competency.



Summary

      The DLA will use its diminishing resources to compete with other Government
      organizations for sales of commercial, brand name office products. Other
      Government organizations, including DOD, have relied on the GSA program to
      supply types of products for many years. We find it difficult to understand the
      benefit to DOD or DLA in continuing to use their dwindling resources to
      reinvent programs that already exist in GSA and NIB and that provide more
      than adequate service, cost-effectively. DLA needs to evaluate its policy to
      expand sales of commercial items to ensure that resources are directed toward
      weapon system items that are used in support of military operations and that the
      types of items do not duplicate centralized procurement programs of other
      Government organizations.



Management Actions

      On March 6, 1998, the Deputy Commander, Defense Industrial Supply Center,
      informed the audit staff that, at the direction of the Defense Logistics Agency
      executive management, the solicitation for the information and imaging
      solutions initiative would be canceled. Subsequently, the DLA executive
      management stated that some items should not have been included in the DISC
      office initiative and the title for the initiative was inappropriate. The DLA
      executive management further stated that it planned a review to determine the
      appropriate items for the DLA mission that should be included in a future
      solicitation. DLA canceled the solicitation on March 10, 1998. As a result of
      the cancellation, we made no recommendation addressing the solicitation.




                                         14
                                     Information   and Imaging Solutions Initiative

Recommendation, Management Comments, and Audit
Response

    We recommend that the Under Secretary of Defense for Acquisition and
    Technology direct that the Director, Defense Logistics Agency, establish
    controls to ensure that Defense Logistics Agency initiatives for commercial,
    brand name items do not duplicate centralized procurement programs of
    other Government organizations.

    Management      Comments.     The Acting Principal Assistant Deputy Under
    Secretary of Defense (Logistics) concurred, and stated that DLA will minimize
    the duplication of centralized procurement programs of other Government
    organizations. DLA should be aware of potential overlaps in its contracting
    initiatives and make a judgment in each case. Substantial duplication will be
    eliminated, as demonstrated by the cancellation of the office products
    solicitation. Incidental overlap will be reviewed to ensure that unwarranted
    costs are not incurred. Additionally, lessons learned through an agreed-upon
    review of the DLA Electronic Catalog Pilot Program will be applied to future
    cases of potential overlap.

    Audit Response.     Comments from the Acting Principal were partially
    responsive because the Acting Principal did not provide information on the
    specific controls DLA will use to minimize duplication of its contracting
    initiatives with centralized programs of other Government organizations.
    Therefore, we request that the Acting Principal provide a clarification on the
    planned actions and the planned completion date.




                                        15
Part II - Additional   Information
Appendix A. Audit Process


Scope and Methodology

       We evaluated the solicitation (SPO500-97-R-0151) for the DISC office initiative
       to determine the types of items included in the initiative, and the procedures
       proposed to order, ship, deliver, and bill those items included in the initiative.
       We obtained supply and procurement program data on GSA, NIB, and the DLA
       electronic catalog to compare those programs to the DISC office initiative to
       determine whether products included in the initiative were also provided by
   .   GSA and NIB. The documentation reviewed covered the period from August
       1997 through February 1998.

       Use of Computer-Processed Data. We did not use computer-processed data or
       statistical sampling procedures for this audit.

       Audit Type, Dates, and Standards. We performed this economy and
       efficiency audit from December 1997 through February 1998 in accordance
       with auditing standards issued by the Comptroller General of the United States
       as implemented by the Inspector General, DOD. Accordingly, we included tests
       of management controls considered necessary.

       Contacts During the Audit. We visited or contacted individuals and
       organizations within DOD, GSA, and NIB. Further details are available on
       request.



Management Control Program

       DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
       requires DOD organizations to implement a comprehensive system of
       management controls that provides reasonable assurance that programs are
       operating as intended and to evaluate the adequacy of the controls.

       Scope of Review of Management Control Program. We reviewed the
       adequacy of DLA management controls to prevent duplication and overlap
       between the DISC office initiative and GSA and NIB supply programs. We
       assessed the DLA self-evaluation of these controls.
                                            18
                                                      Appendix A. Audit Process


Adequacy of Management Controls. We identified a material management
control weakness for the DLA as defined by DOD Directive 5010.38. DLA
management controls were not adequate to ensure that duplication did not exist
between the DISC office initiative and GSA and NIB supply programs and the
DLA electronic catalog. The inadequate DLA management controls were
previously reported in Inspector General, DOD, Report No. 97-205.
Recommendations in this report, if implemented, will correct the material
weakness. We could not determine the amount of the monetary benefits
because it is dependent on future review results and associated management
decisions. A copy of the report will be provided to the senior official
responsible for management controls in DLA.

Adequacy of Management Self-Evaluation. Officials at DLA Headquarters
did not identify the DISC office initiative as an assessable unit, and, therefore,
did not identify the material management control weakness identified by the
audit.




                                     19
Appendix B. Summary of Prior Coverage

   Inspector General, DOD, Report No. 98-037, “Dual Management of
   Commercially Available Items - Battery, Food Service and Photographic
   Products,” December 12,1997. The report states that DLA managed battery,
   food service, and photographic national stock numbered items that were not
   predominantly military and that GSA centrally procured. A random statistical
   sample indicated that 27,958 (61 percent) of 45,936 national stock numbered
   items managed by DLA in 17 Federal supply classes were either procured by
   DLA or GSA and GSA contracted with the same vendors, but the items were
   not in the GSA vendors’ catalogs or the catalogs were not available for review.
   The report recommended that duplication between DLA and GSA in procuring
   battery, food service, and photographic products be eliminated and that.DoD
   requisitioners be reminded that they have the authority to use sources of supply
   other than the integrated manager, when the other sources of supply offer best
   value. The Acting Deputy Under Secretary of Defense (Logistics) concurred
   with the recommendations and stated that by April 15, 1998, based on a written
   DLA analysis, he will initiate coordination with GSA on the management of the
   items and on October 24, 1997, he issued a reminder to DOD organizations
   about the authority they have to purchase items from various sources of supply.
   DLA nonconcurred with the recommendation to provide a written analysis that
   identifies items that GSA is best suited to procure, and stated that it will work
   with GSA to determine the best possible manager for each of the 17 Federal
    supply classes in question. DLA concurred with the recommendation to provide
   justification for retaining the management of items in the Federal supply classes
   that are not predominantly military or classified as nonessential. DLA stated
   that the justification will be as a result of negotiations with GSA and any supply
   classes retained will be on the basis that DLA supports all requirements and
   provides the best overall price and service to customers. We considered the
   DLA comments to be non-responsive, and audit mediation is in process.

   Inspector General, DOD, Report No. 97-205, “Dual Management of
   Commercially Available Items - Defense Logistics Agency Electronic
   Catalog,” August 15, 1997. The report states that portions of the DLA
   electronic catalog program duplicated GSA supply programs, particularly the
   Federal supply schedule and Advantage Program. The report recommended that
   duplication between the electronic catalog and GSA supply programs be
   eliminated and that management controls be established to prevent duplication of
   DLA commercial item procurement initiatives with centralized procurement

                                       20
                                   Appendix B. Summary of Prior Coverage

programs of other Government organizations. DLA nonconcurred with the
recommendations and stated that the electronic catalog supports the National
Performance Review and as such, DLA is required to reengineer its business
practices to implement new ways and better ways of doing business in support
of its customers. DLA further stated that the 12- to l&month catalog
operational demonstration period will provide valuable sales information to
determine which commercial catalog items are most important in the operational
support of the Armed Forces and to do otherwise compromises the pilot test,
removing the capability of DLA to effectively evaluate the new supply support
concept. To resolve the issue, the Office of the Inspector General, DOD, and
DLA agreed to conduct a joint survey of DLA customers to determine whether
the electronic catalog should contain items also offered by GSA.




                                  21
 Appendix         C. Report Distribution


Offke of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Acquisition Reform)
  Deputy Under Secretary of Defense (Logistics)
  Assistant Deputy Under Secretary of Defense (Materiel and Distribution
      Management)
  Director, Defense Procurement
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program and Budget)
Assistant Secretary of Defense (Public Affairs)


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force




                                          22
                                                   Appendix C. Report Distribution


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
   Commander, Defense Industrial Supply Center
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency


Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
   National Security and International Affairs Division
      Technical Information Center
Committee for Purchase From People Who are Blind or Severely Disabled
National Industries for the Blind
National Industries for the Severely Handicapped
General Services Administration

Chairman and ranking minority member of each of the following congressional
committees and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, Criminal Justice,
      Committee on Government Reform and Oversight
   House Committee on National Security




                                          23
Part III - Management Comments
Acting Principal Assistant Deputy Under
Secretary of Defense (Logistics) Comments


                        OFFICE    OF THE    SECRETARY          OF DEFENSE

                                    1000  DEFENSE    PENTAGON
                                  WASHINGTON.     DC   20301-loo0




    (LIMDM)
                                                                    i t MAY 19sa



    MEMORANDUM          FOR DOD INSPECTOR
                             THROUGH: CAIR

    SUBJECT:      Draft Audit Report on Dual Management of Commercially Available ltems -
                  Information and Imaging Solutions (Project No. 6LD-5044.04)


          This responds to your memorandum of March 19, 1998, on the subject draft audit report.

    One recommendation     was addressed to the Under Secretary of Defense for Acquisition and

    Technology.    Our detailed comments on that recommendation are included in the attachment.




                                                es B. Emahiser
                                             cting Principal Assistant Deputy
                                             Under Secretary of Defense (Logistics)

    Attachment

    cc: Director, DLA




                                                    26
Acting Principal Assistant Deputy Under Secretary of Defense (Logistics)
Comments




                                                                         ATTACHMENT

      “We recommend that the Under Secretary of Defense for Acquisition and Technology
      direct the Director, Defense Logistics Agency, establish controls to ensure that Defense
      Logistics Agency initiatives for commercial, brand name items do not duplicate centralized
      procurement programs of other Government organizations.”

      This office concurs with the recommendation. The Defense Logistics Agency (DLA) will
      minimize the duplication of centralized procurement.programs of other Government
      organizations. In its contracting initiatives, DLA should be aware of potential overlaps and make
      a judgment in each case. Substantial duplication will be eliminated, as demonstrated by the
      cancellation of the office products solicitation discussed in the current report. Incidental overlap.
      such as that addressed in the recent Audit Report on the DLA Electronic Catalog Pilot Program
      (OIG Report 97-205), will be reviewed to ensure that unwarranted costs are not incurred. The
      “lessons learned” through the agreed-to actions regarding the Electronic Catalog Pilot Program
      will he applied to future cases of incidental overlap between DLA contracting initiatives and
      centralized procurement programs of other Government organizations.




                                                        27
Audit Team Members

The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DOD, produced this report.


Shelton R. Young
Tilghman A. Schraden
Terrance P. Wing
James J. McDermott
David R. Hasz
